                    U.S. DEPARTMENT OF JUSTICE
                   ANNUAL FINANCIAL STATEMENT
                          FISCAL YEAR 2008
                   OFFICE OF THE INSPECTOR GENERAL
                      COMMENTARY AND SUMMARY
      This audit report contains the Annual Financial Statement of the
U.S. Department of Justice (Department) for the fiscal year (FY) ended
September 30, 2008. 1 Under the direction of the Office of the Inspector General
(OIG), KPMG LLP performed the consolidated Department audit and eight of the
nine reporting component audits for FYs 2008 and 2007. Another independent
public accounting firm, Cotton & Company LLP, performed the remaining
component audit for the same periods, upon which KPMG LLP relied when
issuing its report on the consolidated financial statements.

       The Department received an unqualified opinion on its FYs 2008 and 2007
financial statements. This year, at the consolidated level the Department had
two significant deficiencies, both of which were repeat issues. The first
significant deficiency relates to weaknesses in the general and application
controls over the financial management systems at five of the Department’s
nine reporting components. The Department’s other significant deficiency
relates to several serious but isolated financial reporting issues, including the
U.S. Marshals Service’s financial accounting and reporting quality-control and
assurance, and funds management controls; the Bureau of Alcohol, Tobacco,
Firearms and Explosives’ accounts payable process; the Federal Bureau of
Investigation’s financial reporting process; the Office of Justice Programs’ grant
advances and grant de-obligation process; the Offices, Boards and Divisions’
preparation, review, and approval of journal entries; and the Assets Forfeiture
Fund and Seized Asset Deposit Fund’s financial reporting environment,
obligations and disbursements controls, and seized and forfeited property
controls. The chart at the end of our discussion illustrates the FYs 2008 and
2007 financial statement audit results for the Department and the nine reporting
components.

      However, as also reflected in the chart, the Department has continued to
make progress in its financial management systems and has continued to
address the major problems identified in the OIG’s previous annual financial
statement audits. For example, at the component level the number of material
weaknesses decreased from four in FY 2007 to one in FY 2008. The Department
and its components deserve significant credit for these improvements.

       1
         This report, as differentiated from the Department’s Performance and Accountability
Report, does not include additional unaudited sections such as the Introduction, Performance
Section, Management Section and Appendices. The Annual Financial Statement includes the
Management’s Discussion and Analysis, Principal Financial Statements and Related Notes,
Required Supplementary Information, and Required Stewardship Supplementary Information.

                                             -i-
      Yet, it is important to note that the Department still does not have a
unified financial management system to readily support ongoing accounting
operations and preparation of financial statements. As discussed in past years,
we believe the most important challenge facing the Department in its financial
management is to successfully implement an integrated financial management
system to replace the disparate and, in some cases, antiquated financial
systems used by Department components.

      In the FY 2008 consolidated Report on Compliance and Other Matters, no
instances of significant non-compliance with applicable laws and regulations or
other matters were identified during the audit. Although instances of non-
compliance were reported at some of the components, the consolidated auditors
determined that none of the component level non-compliance issues caused the
Department as a whole to be in significant non-compliance.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Department’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the Department’s
financial management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 12, 2008, and the conclusions expressed in the reports.
However, our review, while still ongoing, disclosed no instances where
KPMG LLP did not comply, in all material respects, with U.S. generally accepted
government auditing standards.




                                      - ii -
                                Comparison of FY 2008 and FY 2007 Audit Results
                           Auditors’            Number of Material                  Number of Significant
                          Opinion On              Weaknesses1                           Deficiencies2
    Reporting Entity       Financial                       Information                          Information
                          Statements         Financial                            Financial
                                                             Systems                              Systems
                         2008      2007    2008     2007       2008    2007     2008     2007      2008     2007

Consolidated DOJ           U3       U        0        0         0        0        1         1        1         1

OBDs                       U        U        0        0         0        0        1         2        0         1
AFF/SADF                   U        U        0        0         0        0        3         2        1         1
FBI                        U        U        0        0         0        1        1         0        0         0
DEA                        U        U        0        0         0        0        0         0        0         1
OJP                        U        U        0        0         0        0        1         2        1         1
USMS                       U        U        1        2         0        0        1         0        1         1
BOP                        U        U        0        0         0        0        0         0        1         1
FPI                        U        U        0        0         0        0        0         0        1         1
ATF                        U        U        0        1         0        0        1         0        0         1
                       Component Totals      1        3         0        1        8         6        5         8

Consolidated Department of Justice (Consolidated DOJ); Offices, Boards and Divisions (OBDs); Assets
Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF); Federal Bureau of Investigation (FBI); Drug
Enforcement Administration (DEA); Office of Justice Programs (OJP); U.S. Marshals Service (USMS);
Federal Bureau of Prisons (BOP); Federal Prisons Industries (FPI); and Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF).
1
  Material weakness – A significant deficiency (see below), or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements will not
be prevented or detected by the Department’s internal control.
2
   Significant deficiency – A control deficiency, or combination of control deficiencies, that adversely affects
the Department’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with U.S. generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the Department’s consolidated financial statements that is more than
inconsequential will not be prevented or detected by the Department’s internal control over financial
reporting. A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis.
3
  Unqualified opinion – An auditor’s report that states the financial statements present fairly, in all material
respects, the financial position and results of operations of the reporting entity, in conformity with
generally accepted accounting principles.




                                                     - iii -
